 

 

NO.

OCTOBER TERM, 2020

IN THE SUPREME COURT OF THE UNITED STATES

 

 

JUAN DAVID RODRIGUEZ,
Petitioner,
v.

MARK INCH, Secretary,
Florida Department of Corrections,

Respondent.

 

 

MOTION TO PROCEED IN FORMA PAUPERIS

 

CAPITAL CASE

COMES NOW THE PETITIONER, JUAN DAVID RODRIGUEZ, by and
through his undersigned counsel, and moves for leave of this Court to proceed in
forma pauperis in this proceeding.

Petitioner has been found indigent by each state and federal court in which he
has challenged this conviction and sentence and has been permitted to proceed in
forma pauperis before this Court, the Florida Supreme Court, the Circuit Court of
the Eleventh Judicial Circuit in and for Miami-Dade County, Florida, the United

States District Court for the Southern District of Florida, and the United States
 

Court of Appeals for the Eleventh Circuit.

Capital Collateral Regional Counsel-South (CCRC-South) is a state agency in
Florida charged with the statutory responsibility of providing legal representation in
both state and federal capital postconviction proceedings to persons convicted and
sentenced to death in Florida. Part IV, Chapter 27, Florida Statutes (1994), is the
CCRC-South enabling statute. CCRC-South, or its predecessor Capital Collateral
Representative (CCR), have been the counsel of record for Petitioner in his state
postconviction proceedings since 1993, when his direct appeal was denied by the
Florida Supreme Court. Undersigned counsel is a member of the Bar of this Court
and is an attorney employed by CCRC-South.

WHEREFORE, Petitioner moves the Court for leave to proceed in this action

in forma pauperis.

 

Capital Collateral Regional Counsel — South
110 SE 6th Street, Suite 701
Fort Lauderdale, FL 33301
Tel. (954) 713-1284
December 23, 2020 gavinS@ecsr.state.fl.us

 
